Review of the Administration on Children, Youth and Families Discretationary Grant No. 04-CY-0611-01 Awarded to the Young Adult Guidance Center, Inc. for the Period September 29, 1997 Through September 28, 2000, A-04-01-06003
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administration on Children, Youth and Families Discretionary Grant No. 04-CY-0611-01 Awarded to the
Young Adult Guidance Center, Inc. for the Period September 29, 1997 Through September 28, 2000," (A-04-01-06003)
November 19, 2001
Complete
Text of Report is available in PDF format (609 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Overall, the Young Adult Guidance Center, Inc. (YAGC) met the goals of providing shelter and assistance to runaway and
homeless youth.  However, our review of the YAGCs accounting controls revealed serious weaknesses.  These weaknesses
occurred because YAGC management had not established adequate accounting controls.  As a result, charges to the Basic
Center and other funding sources did not accurately reflect the actual expenses of these activities; YAGC funds totaling
about $4,000 were stolen; YAGC was not aware that over $12,000 of Basic Center funds were available for program purposes;
penalties and fines were assessed for late payments; vehicles were purchased without the Administration for Children and
Families knowledge; YAGC management was reimbursed for questionable expenses; and facility rental rates the YAGC paid
were higher than comparable rental rates for the area.  We recommended several procedural changes to strengthen YAGCs
accounting controls.  We also recommended that the YAGC evaluate its ability to properly control and account for Federal
funds before submitting future Department of Health and Human Services grant proposals.  YAGC officials generally
agreed with our findings and recommendations and have prepared a plan of action to improve the Centers accounting controls.